 FEDERAL INFORMATION SECURITY
    MANAGEMENT ACT REPORT


Fiscal Year 2007 Evaluation of the Social Security
      Administration's Compliance with the
 Federal Information Security Management Act




            September 2007       A-14-07-17101


        Patrick P. O’Carroll, Jr. – Inspector General
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                SOCIAL SECURITY

MEMORANDUM

Date:      September 24, 2007                                                                  Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Fiscal Year 2007 Evaluation of the Social Security Administration’s Compliance with the
           Federal Information Security Management Act (A-14-07-17101)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration’s (SSA)
           overall security program and practices complied with the requirements of the Federal
           Information Security Management Act of 2002 (FISMA) for Fiscal Year (FY) 2007. 1

           BACKGROUND
           FISMA provides the framework for securing the Federal Government’s information
           technology (IT). All agencies must implement the requirements of FISMA and report
           annually to the Office of Management and Budget (OMB) and Congress on the
           effectiveness of their security programs. FISMA requires each agency to develop,
           document and implement an agencywide information security program. 2

           OMB uses information reported pursuant to FISMA to evaluate agency-specific and
           governmentwide security performance, develop the annual security report to Congress,
           and assist in improving and maintaining adequate agency security performance. OMB
           issued FY 2007 FISMA guidance (FISMA guidance) on July 25, 2007. 3 This guidance
           references and incorporates the requirements4 of OMB Memoranda M-06-15 5 and
           M-06-19. 6 For additional information, see Appendix C.


           1
               Pub. L. No. 107-347, Title III, Section 301.
           2
               Pub. L. No. 107-347, Title III, Section 301 § 3544 (b), 44 U.S.C. § 3544 (b).
           3
            OMB Memorandum M-07-19, FY 2007 Reporting Instructions for the Federal Information Security
           Management Act and Agency Privacy Management, July 25, 2007.
           4
               OMB M-07-19 supra at pages 33-34.
           5
               OMB Memorandum M-06-15, Safeguarding Personally Identifiable Information, May 22, 2006.
           6
             OMB Memorandum M-06-19, Reporting Incidents Involving Personally Identifiable Information and
           Incorporating the Cost for Security in Agency Information Technology Investments, July 12, 2006.
Page 2 - The Commissioner

SCOPE AND METHODOLOGY
FISMA directs each agency’s Office of Inspector General (OIG) to perform an annual,
independent evaluation of the effectiveness of the agency’s information security
program and practices. 7 SSA’s OIG contracted with PricewaterhouseCoopers, LLP
(PwC) to audit SSA’s FY 2007 financial statements. 8 Because of the extensive internal
control system review work that is completed as part of that audit, the OIG FISMA
requirements were incorporated into the PwC financial statement audit contract. This
evaluation included reviews of SSA’s mission critical sensitive systems as described in
the Government Accountability Office’s Federal Information System Controls Audit
Manual (FISCAM). PwC performed an “agreed-upon procedures” engagement using
FISMA, OMB, the National Institute of Standards and Technology (NIST) guidance,
FISCAM, and other relevant security laws and regulations as a framework to complete
the required OIG review of SSA’s information security program and its sensitive
systems. 9 See Appendix D for more details on our Scope and Methodology.

SUMMARY OF RESULTS
Based on the results of the OIG’s and PwC’s audit work, we determined that SSA
substantially met the FISMA requirements for FY 2007. SSA continues to work towards
maintaining a secure environment for its information and systems and has made
improvements over the past year to further strengthen its compliance with FISMA. For
example, SSA continues to have sound remediation, certification and accreditation, and
inventory processes. In FY 2007, SSA completed an inventory of all systems and
subsystems. The SSA systems inventory consisted of 20 major systems as well as
over 300 subsystems. Our review found the FY 2007 inventory is accurate and
complete.

SSA also maintained Certifications and Accreditations (C&A) for all 20 major systems
and conducted recertifications of 12 major systems using NIST Special Publication
800-37 guidance. 10 We reviewed all 20 C&As for the major systems and they were
substantially compliant with NIST 800-37. See Appendix E for the complete list of major
systems that were certified and accredited in FY 2007.




7
    Pub. L. No. 107-347, Title III, Section 301, 44 U.S.C. § 3545 (b)(1).
8
 OIG Contract Number GS-23F-0165N, dated March 16, 2001. FY 2007 option was exercised on
November 30, 2006.
9
 OMB Memorandum M-07-19, FY 2007 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management, July 25, 2007.
10
   NIST Special Publications 800-37, Guide for the Security Certification and Accreditation of Federal
Information Systems, May 2004.
Page 3 - The Commissioner

We noted several areas that would enhance security of SSA’s systems and sensitive
information. SSA should ensure:

•     controls to protect personally identifiable information (PII) are fully developed and
      implemented in accordance with OMB guidance;
•     adequate incident response and reporting policies and procedures are implemented
      agencywide;
•     system access controls are fully implemented to meet least privilege criteria for all
      users of SSA’s systems;
•     all contractor personnel receive annual security awareness;
•     all employees and contractor personnel with significant IT security responsibilities
      should receive specialized training; and
•     the Privacy Impact Assessment (PIA) process appropriately addresses privacy and
      PII protection issues.

SSA’S EFFORTS TO PROTECT PERSONALLY IDENTIFIABLE INFORMATION

In May 2007, OMB issued Memorandum M-07-16, Safeguarding Against and
Responding to the Breach of Personally Identifiable Information, 11 to further address
Government efforts to protect PII. The FISMA guidance 12 requires agencies to include
the following plans required by M-07-16 as an appendix to their annual FISMA report:

•     breach notification policy;
•     implementation plan to eliminate unnecessary use of Social Security Numbers
      (SSN);
•     implementation plan and progress update on review and reduction of holdings of PII;
      and
•     policy outlining rules of behavior and identifying consequences and corrective
      actions available for failure to follow these rules.

SSA has taken numerous steps to address OMB guidance on PII. In September 2006,
the Agency released, Policy and Procedures for All SSA Employees for Reporting the
Loss or Suspected Loss of Personally Identifiable Information. 13 This policy requires
the reporting of incidents involving the loss or potential loss of PII within 1 hour of
discovery. In March 2007, the Agency issued procedures on safeguarding PII while in
transit or outside of secure SSA space. In August 2007, SSA issued the Agency’s Draft
SSA Breach Notification Policy for comments. SSA is also working to eliminate
11
  OMB Memorandum M-07-16, Safeguarding Against and Responding to the Breach of Personally
Identifiable Information, May 22, 2007.
12
     OMB M-07-19, supra at cover page.
13
   Information Systems Security Handbook (ISSH), Appendix V,
http://eis.ba.ssa.gov/ssasso/incidentrptg.htm.
Page 4 - The Commissioner

unnecessary use of the SSN and to reduce holdings of PII. The Agency has a policy
outlining rules of behavior, 14 but needs to improve Agencywide procedures to ensure
better identification of violations and corrective actions. Stronger procedures will likely
result in more consistent and appropriate handling of violations and improve the
effectiveness of the rules of behavior as a deterrent for inappropriate activity.

The Agency has also established workgroups, a PII Executive Steering Committee,
which provides oversight and recommendations on SSA policy, and the PII Breach
Response Group whose role is to engage in Agency planning in the event a breach
occurs. SSA has not included the OIG in its data breach core management group as
recommended by OMB. 15 By including the OIG in this group, SSA will be better able to
respond to data losses and fully comply with OMB requirements.

While developing its plan to reduce unnecessary use of SSNs, as required by OMB, 16
SSA should take into consideration a cross section of potential SSN uses. For
example, SSA should consider information currently sent to Disability Determination
Services (DDS) contractors providing services to beneficiaries and ensure that
contractors are only receiving information that they need to know. Additionally, SSA
should also review information contained in the Death Master File and determine what
happens when individuals are erroneously reported as deceased. SSA should ensure
that these types of situations are addressed in its plan to reduce the unnecessary use of
SSNs.

As SSA strives to safeguard the PII in its possession, it needs to continue to assess and
enhance policies and procedures such as those identifying consequences and
corrective actions available for failure to follow the rules of behavior.

IMPLEMENTATION OF INCIDENT RESPONSE POLICIES AND PROCEDURES

FISMA requires Federal agencies to develop, document, and implement an agencywide
information security program that includes procedures for detecting, reporting, and
responding to security incidents. 17 SSA follows documented policies and procedures
for reporting cyber and physical incidents internally. The Agency’s ISSH Security
Incident Identification, Reporting, and Resolution, contains the documented cyber
incident




14
 ISSH, Rules of Behavior for Users and Managers of SSA's Automated Information Resources,
March 23, 2001.
15
  OMB Memorandum, Recommendations for Identity Theft Related Data Breach Notification,
September 20, 2006, page 2.
16
     OMB M-07-16, supra at page 7.

17
     44 U.S.C. § 3544(b) and (b)(7).
Page 5 - The Commissioner

reporting policies and procedures. 18 For the physical incidents, SSA’s Automated
Information Management System contains internal reporting policies and procedures for
physical security incidents. 19

SSA also has documented policies and procedures for reporting physical and cyber
incidents to law enforcement authorities. SSA’s Intrusion Protection Team has policies
and procedures for reporting incidents to law enforcement authorities. These policies
and procedures meet FISMA requirements by having the Agency send appropriate
cases to SSA’s OIG. However we observed in our Incident Response and Reporting
review, 20 that the Agency did not consistently notify OIG’s Office of Investigations (OI)
when security incidents occurred. The OI could have assisted in the preservation of
electronic evidence and potentially pursued issues for further investigation. The Agency
subsequently informed us that its components will do their utmost to provide all
incidents to OI. We look forward to this revised procedure and will work with the
Agency to ensure that all incidents are forwarded to OI. OI’s Electronic Crimes Team
also has policies and procedures for reporting cyber incidents to other law enforcement
authorities, if necessary. The Agency has policies and procedures contained in the
ISSH for reporting physical incidents to law enforcement.

SSA has documented policies and procedures for reporting internally and to law
enforcement. However, the Agency needs to clarify and fully implement its written
procedures for reporting security incidents to US-CERT. As noted in our Incident
Response and Reporting review, 21 SSA also needs to properly categorize and report
computer-related security incidents in accordance with NIST and US-CERT criteria.
US-CERT coordinates information received from all Federal agencies to defend the
Federal Government against and respond to cyber attacks. By providing US-CERT with
all appropriate information, US-CERT’s efforts to protect the Federal Government will be
enhanced. The Agency needs to ensure that the formal written procedures are fully
disseminated and implemented consistently with its policy so all appropriate incidents
are provided to US-CERT.




18
     ISSH, Chapter 7, Security Incident Identification, Reporting and Resolution, November 15, 2006.
19
  Administrative Instructions Manual System, General Administration Manual, Chapter 12, Instruction
Number 07, Incident Alert Reporting, June 19, 2006.
20
  OIG Report, The Social Security Administration’s Incident Response and Reporting System
(A-14-07-17070), pp. 9, 10, August 3, 2007.
21
     OIG Report A-14-07-17070, supra at p.4.
Page 6 - The Commissioner

IMPLEMENTATION OF SYSTEM ACCESS CONTROLS

Controlling and limiting systems access to the Agency’s information systems and
resources is the first line of defense in assuring the confidentiality, integrity, and
availability of the Agency’s IT resources. Over the years, SSA has worked to establish
sufficient access controls as evidenced by the use of Top Secret software and the
System Security Profile Project. As a result, in FY 2005, the access control issue was
removed as a reportable condition from SSA auditor’s financial statement report.
However, we noted instances where SSA’s access controls could be strengthened.
One area involved access to sensitive data held by DDS employees. 22 These are State
employees who perform services for SSA and periodically need to access SSA records.

We found that:

      •   some DDS employees were granted unneeded access to SSA’s sensitive data;
      •   access control software did not suspend access after a period of non-use if the
          default password has never been changed; and
      •   the need for access to each resource contained in the DDS profiles had not been
          documented for DDS employees.

Another area that could be strengthened involved employment suitability checks of SSA
contractor personnel. We found that a number of the contractor staff involved in office
relocations did not receive background checks. 23 Therefore, they should not have been
permitted to work on-site at an SSA facility or have physical access to Agency hardware
that may have contained programmatic or sensitive information. As a result, SSA
maybe exposing its sensitive data to possible compromise. SSA should continue to
work to strengthen access controls in both of these areas.

SECURITY AWARENESS AND SPECIALIZED TRAINING FOR EMPLOYEES AND
CONTRACTOR PERSONNEL

Identifying Individuals with Significant IT Security Responsibilities

According to OMB FISMA guidance, agencies are required to ensure that employees
and contractor personnel with significant IT security responsibilities receive security
awareness and specialized training. 24 SSA ensures that security awareness is provided
to all employees by requiring them to annually read the Sanctions for Unauthorized




22
  OIG Formal Draft, Access to SSA Data Provided by Disability Determination Services Positional
Profiles (A-14-07-17024), August 23, 2007.
23
  OIG Report, The Social Security Administration's Information Technology Maintenance and Local Area
Network Relocation Contract (A-14-07-17022), pp. 3-4, May 21, 2007.
24
     OMB M-07-19, supra at page 18
Page 7 - The Commissioner

Systems Access Violations and sign that they have read and understand this
document. 25 However, we noted areas that need improvement.

SSA needs to improve its identification of all individuals, both employees and
contractors, with significant IT security responsibilities. Currently, the Agency has
developed and implemented the following definition for the employees with significant IT
security responsibilities:

          Employees with high levels of access to sensitive data who could
          affect agency-wide operations and/or who perform security,
          investigative, or auditing activities on a frequent basis. Personnel
          in these roles have significant access to sensitive information, such
          as social security records, medical records, business confidential
          documents, and other personally identifiable information, which
          needs to be protected against unauthorized access; fraudulent
          activities; and inappropriate disclosure and modification. 26

SSA’s practice is that each component uses this definition to determine which of its
employees have “… significant IT security responsibilities.” The Agency reviewed
individuals’ responsibilities to comply with FISMA. SSA seems to be defining people
with significant security responsibility as those who spend a significant portion of their
work time on IT security issues. Individuals responsible for physical controls over
Agency IT resources or those who have the ability to significantly impact security
controls should be designated as having significant IT responsibilities.

For example, it would benefit SSA to include the individuals who oversee the e-mail
system as those with significant security responsibilities. E-mail continues to be a major
source of vulnerability throughout the cyber world. Lack of adequate controls of an
organization’s e-mail system could lead to major network and system problems. SSA
can reduce its risks by refining its classification of individuals with significant IT security
responsibilities and ensuring that these individuals receive adequate training.

Additionally, the Agency did not consider any of its 22,098 contractors to have
significant IT security responsibility because every decision made or action taken was
approved or carried out by Agency personnel. Although the Agency may not consider
these contractors to have significant IT security responsibilities, there are numerous
contractors that work in the areas of firewall protection, intrusion protection, physical
and systems security that should be considered as meeting the definition of individuals
with significant IT security responsibilities.




25
  SSA Office of Labor Management and Employee Relations, Sanctions for Unauthorized System
Access Violations, page 1, June 1998.
26
     ISSH, Appendix H, Security Training.
Page 8 - The Commissioner

Security Awareness for Contractors

SSA needs to improve monitoring of security awareness notifications received by the
Agency’s contractors. SSA has a policy requiring all contractor personnel to read and
sign the annual security awareness statement. SSA staff indicated that all contractor
personnel are provided the same security awareness notifications as its employees.
However, because the Agency did not centrally maintain and monitor the security
awareness efforts for its contractors, SSA could not provide supporting documentation
to substantiate that the Agency complied with the requirement for security awareness
for contractors. SSA plans to change its monitoring process to improve tracking of
contractor security awareness.

It should be noted that OMB’s FISMA guidance asked for OIGs and agencies to report
on security awareness training in slightly different manners. Agencies were only asked
an overall “Yes/No” question as to whether all employees and contractors were
provided security awareness. 27 OIGs were asked the percentage of the combined
employees and contractors who received security awareness. 28 According to OMB
FISMA guidance, all employees, regardless whether they have systems access, should
receive annual security and privacy awareness training. 29 Contractors must be trained
on agency-specific security policies and procedures, including rules of behavior. 30 By
not monitoring contractor training and awareness, contractors may access SSA’s
systems without being fully aware of or appropriately trained in how to handle SSA’s
sensitive information. SSA needs to ensure appropriate security awareness and
training is provided to contractor personnel. As system owners, SSA has the ultimate
responsibility to ensure those who could impact its systems have sufficient security
awareness and training.




27
     OMB M-07-19, supra at page 26.

28
     OMB M-07-19, supra at pages 34-35.
29
     OMB M-07-19, supra at page 18.
30
     Id.
Page 9 - The Commissioner

PERFORMANCE OF THE PRIVACY IMPACT ASSESSMENTS

The E-Government Act 31 and OMB M-03-22 32 require agencies to perform PIAs for
systems that collected PII from the public in certain situations. 33 A PIA is defined as

          …an analysis of how information is handled: (i) to ensure handling
          conforms to applicable legal, regulatory, and policy requirements
          regarding privacy, (ii) to determine the risks and effects of collecting,
          maintaining and disseminating information in identifiable form in an
          electronic information system, and (iii) to examine and evaluate
          protections and alternative processes for handling information to
          mitigate potential privacy risks. 34

Sixteen of SSA’s 20 significant systems collect PII from the public. During our fieldwork,
SSA provided 2 dedicated and 9 associated PIAs for these 16 systems. The PIAs
reviewed followed the procedures documented in ‘PIA info from PRIDE.’ 35 Based on
the results of our review, we determined and SSA agreed that dedicated PIAs were
needed for the remaining 14 systems. On September 4, 2007, SSA provided the OIG
with the dedicated draft PIAs for the 14 remaining systems, which appeared to be
prepared properly. SSA plans to finalize the dedicated PIAs for the remaining 14
systems by September 30, 2007. SSA needs to follow through with its plan to finalize
these 14 draft PIAs by end of September. In the future, completing the appropriate
PIAs in a timely manner will enable SSA to better address the risks involved with the
collection and protection of sensitive information. 36

CONCLUSIONS AND RECOMMENDATIONS
During our FY 2007 FISMA evaluation, we determined that SSA substantially met the
requirements of FISMA. SSA worked cooperatively with the OIG to identify ways to
comply with FISMA. SSA continues to operate a myriad of security controls to protect
its sensitive data, assets and operations. SSA develops new policies and procedures
when required.



31
     E-Government Act of 2002, Pub. L. No. 107-347 § 208B.1.a., December 17, 2002.
32
  OMB Memorandum, M-03-22, OMB Guidance for Implementing the Privacy Provisions of the
E-Government Act of 2002, pages 3 and 8, September 26, 2003.
33
  The E-Government Act of 2002, supra, requires an agency to conduct a PIA before developing or
procuring certain information technology, or initiating certain new collections of information in identifiable
form that will use information technology.

34
  OMB Memorandum, M-03-22, OMB Guidance for Implementing the Privacy Provisions of the
E-Government Act of 2002, Attachment A § II.A.6., September 26, 2003.
35
     PRIDE is SSA’s rules and guidelines for developing new systems and applications.
36
     E-Government Act of 2002, supra, § 208B.1, OMB Memorandum, M-03-22, supra.
Page 10 - The Commissioner

To fully comply and ensure future compliance with FISMA and other information security
related laws and regulations, we recommend SSA ensure:

   1. controls to protect PII are fully developed and implemented in accordance with
      OMB guidance;

   2. adequate incident response and reporting policies and procedures are
      implemented Agencywide;

   3. system access controls are fully implemented to meet least privilege criteria for
      all users of SSA’s systems;

   4. refinement efforts continue for its categorization of Agency and contractor
      personnel with significant IT security responsibility and ensure that appropriate
      training is provided;

   5. all contractor personnel receive annual security awareness; and

   6. the PIA process is completed timely and that it appropriately addresses privacy
      and PII protection issues.




                                                Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Office of the Inspector General’s Completion of the Office of
             Management and Budget’s Questions Concerning Social Security
             Administration’s Compliance with the Federal Information Security
             Management Act

APPENDIX C – Background and Current Security Status

APPENDIX D – Scope and Methodology

APPENDIX E – Systems Certified and Accredited in Fiscal Year 2007

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
C&A        Certifications and Accreditations
DDS        Disability Determination Services
FIPS       Federal Information Processing Standard
FISCAM     Federal Information System Controls Audit Manual
FISMA      Federal Information Security Management Act
FY         Fiscal Year
IT         Information Technology
ISSH       Information Systems Security Handbook
NIST       National Institute of Standards and Technology
OIG        Office of the Inspector General
OI         Office of Investigations
OMB        Office of Management and Budget
PIA        Privacy Impact Assessments
PII        Personally Identifiable Information
Pub. L.    Public Law
POA&M      Plan of Action and Milestones
PwC        PricewaterhouseCoopers LLP
SSA        Social Security Administration
SSN        Social Security Number
U.S.C.     United States Code
US-CERT    United States Computer Emergency Readiness Team
                                                                              Appendix B
Office of the Inspector General’s Completion of OMB Questions
Concerning Social Security Administration’s Compliance with the
Federal Information Security Management Act

                             Section C Inspector General: Question 1 and 2


Agency Name: Social Security Administration                           Submission date: 9/24/07

                                 Question 1: FISMA Systems Inventory
1. As required in FISMA, the IG shall evaluate a representative subset of systems used or operated by
an agency or by a contractor of an agency or other organization on behalf of an agency.

In the table below, identify the number of agency and contractor information systems, and the number
reviewed, by component/bureau and FIPS 199 system impact level (high, moderate, low, or not
categorized). Extend the worksheet onto subsequent pages if necessary to include all
Component/Bureaus.

Agency systems shall include information systems used or operated by an agency. Contractor
systems shall include information systems used or operated by a contractor of an agency or other
organization on behalf of an agency. The total number of systems shall include both agency systems
and contractor systems.

Agencies are responsible for ensuring the security of information systems used by a contractor of
their agency or other organization on behalf of their agency; therefore, self reporting by contractors
does not meet the requirements of law. Self-reporting by another Federal agency, for example, a
Federal service provider, may be sufficient. Agencies and service providers have a shared
responsibility for FISMA compliance.
                                            a.                     b.                        c.
                                    Agency Systems              Contractor        Total Number of Systems
                                                                Systems
                    FIPS 199
Social Security      System        Total      Number       Total      Number       Total       Number
Administration    Impact Level    Number     Reviewed     Number     Reviewed     Number      Reviewed
                  High                  0             0          0            0          0             0
                  Moderate              8             8          0            0          8             8
                  Low                  12            12          0            0         12            12
                  Not
                  Categorized           0             0          0            0          0             0
 Agency Totals    Total                20            20          0            0         20            20




                                               B-1
2. For the Total Number of Systems reviewed by Component/Bureau and FIPS System Impact Level
in the table for Question 1, identify the number and percentage of systems which have: a current
certification and accreditation, security controls tested and reviewed within the past year, and a
contingency plan tested in accordance with policy.

                                             Question 2

                                        a.                       b.                      c.
                                    Number of          Number of systems       Number of systems for
                                 systems certified      for which security    which contingency plans
                                  and accredited       controls have been        have been tested in
                                                      tested and evaluated     accordance with policy
                                                          in the last year         and guidance


                    FIPS 199
Social Security      System       Total    Percent     Total     Percent of     Total       Percent of
Administration    Impact Level   Number    of Total   Number       Total       Number         Total
                  High                 0      0.0%           0        0.0%              0         0.0%
                  Moderate             8    40.0%            8       40.0%              8        40.0%
                  Low                 12    60.0%           12       60.0%           12          60.0%
                  Not
                  Categorized          0      0.0%           0        0.0%              0         0.0%
Agency Totals     Total               20   100.0%           20      100.0%           20         100.0%




                                              B-2
                                                  Question 3

In the format below, evaluate the agency’s oversight of contractor systems, and agency system inventory.

          The agency performs oversight and evaluation to ensure information
          systems used or operated by a contractor of the agency or other
          organization on behalf of the agency meet the requirements of FISMA,
          OMB policy and NIST guidelines, national security policy, and agency
          policy.

          Agencies are responsible for ensuring the security of information systems
          used by a contractor of their agency or other organization on behalf of their   N/A , SSA does not use
          agency; therefore, self reporting by contractors does not meet the              any systems that are
  3.a.    requirements of law. Self-reporting by another Federal agency, for              controlled by
          example, a Federal service provider, may be sufficient. Agencies and            contractors or other
          service providers have a shared responsibility for FISMA compliance.            organizations

          Response Categories:
               - Rarely, for example, approximately 0-50% of the time
               - Sometimes, for example, approximately 51-70% of the time
               - Frequently, for example, approximately 71-80% of the time
               - Mostly, for example, approximately 81-95% of the time
               - Almost Always, for example, approximately 96-100% of the time
          The agency has developed an inventory of major information systems
          (including major national security systems) operated by or under the
          control of such agency, including an identification of the interfaces
          between each such system and all other systems or networks, including
          those not operated by or under the control of the agency.
                                                                                           Approximately 96-
 3.b.
          Response Categories:                                                            100% complete
               - Approximately 0-50% complete
               - Approximately 51-70% complete
               - Approximately 71-80% complete
               - Approximately 81-95% complete
               - Approximately 96-100% complete

          The OIG generally agrees with the CIO on the number of agency-owned
  3.c.                                                                                             Yes
          systems.


          The OIG generally agrees with the CIO on the number of information
 3.d.     systems used or operated by a contractor of the agency or other                          Yes
          organization on behalf of the agency.


  3.e.    The agency inventory is maintained and updated at least annually.                        Yes

          If the Agency IG does not evaluate the Agency’s inventory as 96-100%
          complete, please list the systems that are missing from the inventory.
  3.f.                                                                                             N/A
          Missing Agency Systems
          Missing Contractor Systems




                                                  B-3
                                               Question 4

Assess whether the agency has developed, implemented, and is managing an agency-wide plan of
action and milestones (POA&M) process. Evaluate the degree to which each statement reflects the
status in your agency by choosing from the responses provided. If appropriate or necessary,
include comments in the area provided.

For each statement in items 4.a. through 4.f., select the response category that best reflects the
agency's status.

      -   Rarely, for example, approximately 0-50% of the time
      -   Sometimes, for example, approximately 51-70% of the time
      -   Frequently, for example, approximately 71-80% of the time
      -   Mostly, for example, approximately 81-95% of the time
      -   Almost Always, for example, approximately 96-100% of the time

                     The POA&M is an agencywide
                     process, incorporating all known IT
                     security weaknesses associated with
                                                                  - Almost Always, for example,
       4.a.          information systems used or operated
                                                                 approximately 96-100% of the time
                     by the agency or by a contractor of
                     the agency or other organization on
                     behalf of the agency.
                     When an IT security weakness is
                     identified, program officials (including
                                                                  - Almost Always, for example,
       4.b.          CIOs, if they own or operate a
                                                                 approximately 96-100% of the time
                     system) develop, implement, and
                     manage POA&Ms for their system(s).
                     Program officials and contractors
                     report their progress on security     - Almost Always, for example,
       4.c.
                     weakness remediation to the CIO on a approximately 96-100% of the time
                     regular basis (at least quarterly).

                     Agency CIO centrally tracks,
                                                                  - Almost Always, for example,
       4.d.          maintains, and reviews POA&M
                                                                 approximately 96-100% of the time
                     activities on at least a quarterly basis.
                       OIG findings are incorporated into the  - Almost Always, for example,
       4.e.
                       POA&M process.                         approximately 96-100% of the time
                       POA&M process prioritizes IT security
                       weaknesses to help ensure significant
                                                               - Almost Always, for example,
         4.f.          IT security weaknesses are
                                                              approximately 96-100% of the time
                       addressed in a timely manner and
                       receive appropriate resources
POA&M process comments: 4a & 4c. Agency should continue to monitor the process to ensure
that all findings are included in the process.




                                                B-4
                                            Question 5
Provide a qualitative assessment of the agency's certification and accreditation process, including
adherence to existing policy, guidance, and standards. Provide narrative comments as appropriate.

Agencies shall follow NIST Special Publication 800-37, "Guide for the Security Certification and
Accreditation of Federal Information Systems" (May 2004) for certification and accreditation work
initiated after May 2004. This includes use of the FIPS 199, "Standards for Security Categorization
of Federal Information and Information Systems" (February 2004) to determine a system impact
level, as well as associated NIST document used as guidance for completing risk assessments and
security plans.
                The IG rates the overall quality of the
                Agency's certification and accreditation
                process as:

             Response Categories:
   5.a.                                                       - Excellent
                  - Excellent
                  - Good
                  - Satisfactory
                  - Poor
                  - Failing
                                                               Security plan
                                                                                           X
                                                               System impact level         X
                                                               System test and             X
             The IG's quality rating included or considered    evaluation
   5.b.      the following aspects of the C&A process:         Security control testing    X
             (check all that apply)                            Incident handling           X
                                                               Security awareness          X
                                                               training
                                                               Configurations/patching     X
                                                               Other:
C&A process comments:




                                             B-5
                                               Question 6
            Provide a qualitative assessment of the agency's Privacy
            Impact Assessment (PIA) process, as discussed in Section D
            II.4 (SAOP reporting template), including adherence to
            existing policy, guidance, and standards.

            Response Categories:
    6.a.     - Response Categories:                                                      Good
             - Excellent
             - Good
             - Satisfactory
             - Poor
             - Failing

Comments: Sixteen of SSA’s twenty significant systems collect PII from the public. During our
fieldwork, SSA provided 2 dedicated and 9 associated PIAs of these 16 systems. The Agency
follows the procedures in the document entitled "PIA info from PRIDE”1 to determine whether a
PIA is required. Based on the results of our review, we determined and SSA agreed that
dedicated PIAs were needed for the remaining 14 systems. On September 4, 2007, SSA
provided the OIG with the dedicated draft PIAs for the 14 systems that collect public PIA, which
appear to be completed appropriately. SSA plans to finalize the dedicated PIAs for the
remaining 14 systems by September 30, 2007. Completing the appropriate PIAs will enable SSA
to better address the risk involved with the collection and protection of sensitive information.


            Provide a qualitative assessment of the agency's progress to date
            in implementing the provisions of M-06-15, "Safeguarding
            Personally Identifiable Information" since the most recent self-
            review, including the agency's policies and processes, and the
            administrative, technical, and physical means used to control and
            protect personally identifiable information (PII).
    6.b.
                                                                                       Good
            Response Categories:
             - Response Categories:
             - Excellent
             - Good
             - Satisfactory
             - Poor
             - Failing


Comments: SSA has taken considerable steps to safeguard PII. They have established a policy
to report incidents involving the loss or potential loss of PII to US-CERT. They have issued
procedures on safeguarding PII while in transit or outside of secure SSA space. They are
developing a SSA Breach Notification Policy scheduled for issuance September 30, 2007. SSA
still needs to finalize and fully implement these new policies and procedures. Due to the time
frame, the OIG has not yet had the opportunity to test the effectiveness of all the controls
recently issued.



1
    PRIDE is SSA’s rules and guidelines for developing new systems and applications.
                                                     B-6
                                           Question 7

     Is there an agency-wide security configuration policy?
 7.a.                                                                                Yes
     Yes or No.
Comments:




          Approximate the extent to which applicable information systems
          apply common security configurations established by NIST.

          Response categories:
                                                                                 Almost Always-
                                                                                 for example,
 7.b.
          Rarely- for example, approximately 0-50% of the time                   approximately
           - Sometimes- for example, approximately 51-70% of the time            96-100% of the
           - Frequently- for example, approximately 71-80% of the time           time
           - Mostly- for example, approximately 81-95% of the time
           - Almost Always- for example, approximately 96-100% of the time




Comments:



                                           Question 8

Indicate whether or not the agency follows documented policies and procedures for reporting
incidents internally, to US-CERT, and to law enforcement. If appropriate or necessary, include
comments in the area provided below.

        The agency follows documented policies and procedures for
8.a.                                                                                   Yes
        identifying and reporting incidents internally. Yes or No.

        The agency follows documented policies and procedures for
8.b.    external reporting to the United States Computer Emergency                     Yes
        Readiness Team (US-CERT). http://www.us-cert.gov. Yes or No.

        The agency follows documented policies and procedures for
8.c.                                                                                  Yes
        reporting to law enforcement. Yes or No.
Comments: 8b. SSA needs to ensure that the policies and procedures are fully disseminated to
the appropriate staff and fully implemented.
8c. The Agency informed us that its components will do their utmost to provide all incidents to OI.
We look forward to this revised procedure and will work with the Agency to ensure that all
incidents are forwarded to OI.




                                               B-7
                                              Question 9



Has the agency ensured security awareness training of all employees,
including contractors and those employees with significant IT security
responsibilities?
                                                                                      Frequently- or
Response Categories:
                                                                                    approximately 71-
 - Rarely- or approximately 0-50% of employees
                                                                                    80% of employees
 - Sometimes- or approximately 51-70% of employees
 - Frequently- or approximately 71-80% of employees
 - Mostly- or approximately 81-95% of employees
 - Almost Always- or approximately 96-100% of employees

Comments: All 64,170 SSA employees have received annual security awareness. SSA has a
policy for all contractors to receive security awareness annually, but could not confirm that the policy
was adhered to. Therefore, we could only confirm that 64,170 employees the 86,268 employees
and contractors, or 74%, have received security awareness. Next year, SSA plans to establish a
contractor monitoring process for security awareness.


                                              Question 10
Does the agency explain policies regarding peer-to-peer file sharing in IT
security awareness training, ethics training, or any other agencywide training?
                                                                                            Yes
Yes or No.

                                             Question 11

The agency has completed system e-authentication risk assessments. Yes or
                                                                                            Yes
No.




                                               B-8
                                                                        Appendix C

Background and Current Security Status
The Federal Information Security Management Act (FISMA) requires agencies to create
protective environments for their information systems. It does so by creating a
framework for annual Information Technology (IT) security reviews, vulnerability
reporting, and remediation planning, implementation, evaluation, and documentation. 1
In Fiscal Year 2005, Social Security Administration (SSA) resolved the long standing
internal controls reportable condition concerning its protection of information. 2 SSA
continues to work with the Office of the Inspector General and PricewaterhouseCoopers
LLP to further improve security over the protection of information and resolve other
issues observed during prior FISMA reviews.

The Office of Management and Budget (OMB) continues to stress the importance of
protecting the public’s privacy and Personally Identifiable Information (PII) as emphasized
by new guidance such as OMB M-07-16, Safeguarding Against and Responding to the
Breach of Personally Identifiable Information. This new guidance mandates agencies
increasing efforts to reduce the use of PII collected and held. OMB M-07-16 complements
existing PII guidance contained in OMB Memorandum M-06-15 and OMB Memorandum
M-06-19. OMB is incorporating more privacy and PII protection questions in its annual
FISMA guidance. OMB M-07-19 requires agencies to include in their annual FISMA
submission:

•     Breach notification policy;
•     Implementation plan to eliminate unnecessary use of Social Security numbers;
•     Implement a plan and progress update on review and reduction of holdings of PII;
      and
•     Policy outlining rules of behavior and identifying consequences and corrective
      actions available for failure to follow these rules.

In addition, OMB guidance M-07-19 requires Inspectors General to rate the quality of
Agencies’ Privacy Impact Assessment process and their efforts to protect PII according to
OMB M-06-15.




1
    Pub. L. 107-347, Title III, Section 301, 44 U.S.C. § 3544.
2
    SSA’s FY 2005 Performance and Accountability Report, page 163.



                                                      C-1
This report informs Congress and the public about the Federal Government's security
performance, and fulfills OMB's requirement under FISMA to submit an annual report to
Congress. It provides OMB's assessment of governmentwide IT security strengths and
weaknesses and a plan of action to improve performance. It also examines agency
status against key security and privacy performance measures from Fiscal Year (FY)
2002 through FY 2006. The Committee on Oversight and Government Reform issues
an annual Report Card on Computer Security at Federal Departments and Agencies.
SSA has received a score of A+ and A over the past 2 years.




                                         C-2
                                                                                         Appendix D

Scope and Methodology
The Federal Information Security Management Act (FISMA) directs each agency’s
Office of Inspector General (OIG) to perform, or have an independent external auditor
perform, an annual independent evaluation of the agency’s information security program
and practices, as well as a review of an appropriate subset of agency systems. 1 The
Social Security Administration’s (SSA) OIG contracted with PricewaterhouseCoopers
LLP (PwC) to audit SSA’s Fiscal Year (FY) 2007 financial statements. Because of the
extensive internal control system work that is completed as part of that audit, our FISMA
review requirements were incorporated into the PwC financial statement audit contract.
This evaluation included Federal Information System Controls Audit Manual (FISCAM)
level reviews of SSA’s mission critical sensitive systems. PwC performed an “agreed-
upon procedures” engagement using FISMA, the Office of Management and Budget
(OMB) Memorandum M-07-19, FY 2007 Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management, National
Institute of Standards and Technology guidance, FISCAM, and other relevant security
laws and regulations as a framework to complete the OIG required review of SSA’s
information security program and practices and its sensitive systems. We also
considered the security implications of OMB Memorandum M-07-16.

The results of our FISMA evaluation are based on the PwC FY 2007 Independent
Accountants’ Report on Applying Agreed-Upon Procedures report and working papers,
and various audits and evaluations performed by this office. We also reviewed the final
draft of SSA's FY 2007 Security Program Review as required by the Federal Information
Security Management Act.

Our major focus was an evaluation of SSA’s plan of action and milestones (POA&M),
risk models and configuration settings, certifications and accreditations (C&A), and
systems inventory processes. Our evaluation of SSA’s POA&Ms included an analysis
of Automated Security Self-Evaluation and Remediation Tracking system and its
policies. Our review of the Agency’s C&A process included an analysis of the C&As for
each of the 20 major systems. We also reviewed SSA’s updated systems inventory and
the policy for the update processes.

We performed field work at SSA facilities nationwide from March to September 2007.
We considered the results of other OIG audits performed in FY 2007. Our evaluation
was performed in accordance with generally accepted government auditing standards.




1
    Pub. L. No. 107-347, Title III, section 301, 44 U.S.C § 3545 (a)(1), (a)(2), and (b)(1).
                                                                         Appendix E

Systems Certified and Accredited in Fiscal Year 2007
#                            System                                      Acronym
               General Support Systems
1   Audit Trail System                                        ATS
2   Comprehensive Integrity Review Process                    CIRP

3   Death Alert, Control & Update System                      DACUS

4   Debt Management System                                    DMS

5   Disability Case Adjudication and Review System            DICARS

6   Integrated Disability Management System                   IDMS

7   Enterprise Wide Mainframe & Distributed Network           EWAN
    Telecommunications Services System
8   FALCON Data Entry System                                  FALCON

9   Human Resources Management Information System             HRMIS

10 Integrated Client Database System                          ICDB

11 LENEL                                                      LENEL

12 Recovery of Overpayments, Accounting, & Reporting System   ROAR

13 Social Security Online Accounting and Reporting System     SSOARS
14 Security Unified Measurement Systems                       SUMS


                      Major Applications
1   Electronic Disability System                              eDib
2   Earnings Record Maintenance System                        ERMS
3   Retirement, Survivors & Disability Insurance System –     RSDI – Accounting
    Accounting
4   SSN Establishment & Correction System                     SSNECS
5   Supplemental Security Income Record Maintenance System    SSIRMS

6   Title II System                                           Title II
                                                                        Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kitt Winter, Director, Data Analysis and Technology Audit Division
   (410) 965-9702

   Phil Rogofsky, Audit Manager, Network Security and Telecommunications Branch
   (410) 965-9719

Acknowledgments

In addition to the persons named above:

   Mary Ellen Moyer, Senior Program Analyst

   Deborah Kinsey, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-14-07-17101.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform, House of
Representatives
Chairman and Ranking Minority Member, Committee on Science, House of
Representatives
Chairman and Ranking Minority Member, Committee on Governmental Affairs, U.S.
Senate
Chairman and Ranking Minority Member, Committee on Commerce, Science and
Transportation, U.S. Senate
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
